  UNITED STATES DEPARTMENT OF AGRICULTURE

         OFFICE OF INSPECTOR GENERAL



 STATEMENT OF THE HONORABLE PHYLLIS K. FONG

               INSPECTOR GENERAL


                     Before the

SUBCOMMITTEE ON INTERIOR, ENVIRONMENT, AND RELATED
                     AGENCIES

           COMMITTEE ON APPROPRIATIONS

           U.S. HOUSE of REPRESENTATIVES



                 MARCH 11, 2009
 


Good morning, Chairman Dicks, Ranking Member Simpson, and Members of the
Subcommittee. Thank you for inviting me to testify about our work at the U.S. Department of
Agriculture (USDA) Office of Inspector General (OIG) regarding the U.S. Forest Service (FS).
Conducting oversight of FS’ vast operations and programs is an important responsibility for
OIG. Our audits and investigations of FS’ vital activities and programs are frequently among
the highest profile work we do each year with respect to congressional and public interest.
Before beginning my testimony, I would also like to express the high regard that OIG has for
the valuable natural resource stewardship work of FS officials and employees across the
country. I particularly appreciate the cooperation provided by FS officials and staff to our
auditors and investigators as we carry out our oversight responsibilities.


I will begin my testimony with an overview of the plan my senior managers and I have
developed to conduct oversight of FS’ activities that will be funded by the American Recovery
and Reinvestment Act of 2009 (Recovery Act). 1 I can advise the Subcommittee of several
specific audits we will conduct pursuant to FS’ Recovery Act programs. As requested by the
Subcommittee, I will then present an update on recent OIG work involving FS’ wildfire
management issues, discuss some of the more noteworthy audits we now have underway or
planned, and provide information on our major investigative activity in the past year.


I. OIG Oversight for FS Activities Funded by the Recovery Act


          A. Recovery Act Oversight: OIG Planning


As you know, the Recovery Act provided FS with $650 million for Capital Improvements and
Maintenance and an additional $500 million for Wildland Fire Management. The Recovery Act
provided supplemental funding to OIG for oversight of USDA’s stimulus activities, including
guidance that a portion of the funds be used for oversight and audits of FS stimulus programs,
grants, and projects.         We appreciate the efforts of the Chairman, Ranking Member, and
Subcommittee Members to ensure that our office would receive supplemental funding to meet
our FS oversight responsibilities under the Recovery Act.
1
    H.R. 1, Public Law 111-5, February 17, 2009.


                                                                                            1
 


The Recovery Act creates a vital oversight role for the IG community, and I can assure the
Subcommittee that our office is actively engaged in planning to meet our responsibilities with
respect to FS’ stimulus-funded activities. Our emphasis for FS (and all USDA agencies in our
jurisdiction) will be taking proactive measures to make sure the vast public funds involved are
properly expended and utilized. We have developed a number of actions to enable OIG to
provide timely and effective oversight of FS’ Recovery Act expenditures. Our oversight plan is,
of course preliminary, since we will regularly make adjustments as FS develops its own plan
for using its Recovery Act funding and begins to spend the monies.


In anticipation of the Act’s passage, we began reviewing FS’ implementation of agreed-to OIG
audit recommendations for programs that will receive Recovery Act funding. In recent years,
we have made recommendations affecting many of the FS programs receiving such funding.
We are conducting analyses of our recommendations to determine if FS officials have fully
implemented the corrective actions required and whether the agency’s actions are proving
effective in correcting past operational and programmatic weaknesses we identified.


We are conducting outreach to FS—including meetings with senior officials—to advise them of
OIG’s plans and to solicit their input on where our efforts would be most effective. OIG Audit
officials are working with FS officials to review the agency’s plan for its Recovery Act funds.
As their plan is finalized, we will proactively monitor and evaluate FS’ stimulus-related
spending to reduce fraud, waste, and abuse. We will provide FS officials with information on
oversight “best practices” as they are developed. For example, we have provided FS with a
recently issued guide to grant oversight and best practices for combating grant fraud.


The second phase of our Recovery Act oversight plan for FS will involve developing new
audits to review various aspects of the agency’s programs receiving stimulus funding. (Several
such Recovery Act-related audits are described in subsequent sections of this testimony.)
OIG’s review of FS’ Recovery Program Plan may lead to further targeted oversight initiatives.
We anticipate that a final phase of audit work will evaluate the determinations FS makes about
the effectiveness of its stimulus activities by analyzing FS performance measures with respect
to outcomes.

                                                                                             2
 


On the Investigations side of OIG, our agents will increase the fraud awareness briefings we
conduct for FS (and other USDA agency) personnel and distribute information to program
stakeholders on our investigative capabilities and the avenues available for citizens to report
stimulus-related fraud. 2 OIG fraud alert memoranda to USDA agency personnel will highlight
fraud schemes attempted in other Federal entities to raise awareness levels.                  We will
investigate any allegations of program, grant, and contract fraud that may arise in FS’ stimulus-
funded activities.   OIG’s Hotline can be a source of information on potential criminal activity
affecting FS’ stimulus activities. Each month, our Hotline staff receives approximately 275
contacts and performs an initial assessment of the complaints and allegations to determine the
level of OIG investigative inquiry that is warranted. Upon assessing our investigative results
for USDA’s stimulus activities, we will work to ensure that entities involved in criminal or
serious misconduct are held accountable via criminal and/or civil prosecution, asset forfeiture,
agency fines, and administrative sanctions (suspension/debarments, etc.).


       B. Recovery Act Oversight: Specific OIG Reviews of FS Programs

We will begin our active monitoring of FS’ Recovery Act activities by following up on two audits
that we have previously presented to the Subcommittee. These are Large Fire Suppression
Costs and the Healthy Forest Initiative. 3         I would like to advise the Members of our
observations regarding the responsive actions FS has taken regarding these audits—and what
further steps should be taken—since we testified before the Subcommittee last year. First,
with respect to our Large Fire Suppression Cost audit, we recommended that FS should:


•   Modify current polices to allow concurrent management of wildland fires for both Wildland
    Fire Use 4 (WFU) and suppression; transitioning between WFU and suppression; and
    managing wildfire suppressions to accomplish fuel reduction;


2
  OIG fraud awareness briefings are provided to entities such as agencies, contractors, grantees, and
research facilities.
3
  Forest Service Large Fire Suppression Costs. OIG report 08601-44-SF, November 2006.
Implementation of the Healthy Forests Initiative. OIG report 08601-6-AT, September 2006.
4
  Wildland fire use – The management of naturally ignited (usually by lightning) wildland fires to
accomplish specific pre-stated resource management objectives in predefined areas outlined in a Fire
Management Plan.
                                                                                                        3
 



•   Develop better reporting and assessment mechanisms for accurate evaluations of agency
    fire suppression activity and further develop procedures and training for FS staff who
    perform the reviews.


We have reviewed FS policy changes and discussed these issues with agency managers. We
believe FS is making progress towards more effective fire suppression practices. Since a
small number of large fires consume most of the suppression budget, FS has advised OIG that
it is working on a fundamental shift in its management approach and practices for WFU and
suppression. Specifically, Incident Command (IC) leaders now have flexibility to change their
management actions under a program of Appropriate Management Response. 5 Additionally,
FS has increased its training not only for IC staff but also for land managers who interact with
the IC staff.


FS is in the process of implementing new practices to re-evaluate the amount of resources
committed to large fires, assess the probability of success, and re-allocate resources to areas
and incidents where the resources may have a greater impact. FS has also been developing
software, management processes, and scientific tools to better measure its success in
effectively and efficiently suppressing wildfires. FS has changed how it reviews large fire
suppression costs.     Specifically, OIG worked with FS to develop a guide for personnel
conducting large fire suppression reviews. This guide—Interagency Large Fire Cost Review
Guide (July 2008)—has been adopted as the national inter-agency guide for conducting large
fire suppression reviews by the Wildland Fire Coordinating Group.


The second update I would like to provide for the Subcommittee pertains to our audit of the
Healthy Forest Initiative (HFI), in which we determined that FS lacked a consistent analytical
process for assessing the level of risk that communities face from wildland fire and determining
if a hazardous fuels project is cost beneficial. We also found that FS had not developed
specific national guidance to weigh risks and benefits of fuels treatment and restoration

5
  Any specific action suitable to meet Fire Management Unit (FMU) objectives. Typically, the AMR
ranges across a spectrum of tactical options (from monitoring to intensive management actions). The
AMR is developed by using FMU strategies and objectives identified in the Fire Management Plan.
                                                                                                      4
 


projects.    Since the release of our HFI audit, OIG Audit personnel have communicated
regularly with FS management regarding their actions on our recommendations and those
contained in a subsequent Government Accountability Office (GAO) report. 6


In response to the recommendations of OIG, FS has started refocusing its approach to
hazardous fuels. Currently, FS is in its third year of hazardous fuels prioritization. For the
second time, FS’ Headquarters office is mandating the use of its prioritization model or an
equivalent. FS is beginning to use the Fire Program Analysis (FPA) program to identify and
prioritize hazardous fuels projects. FPA is also being used for formulation and allocation of FS’
budget.


In recognition of the policy and programmatic changes FS has conveyed to OIG and the
Recovery Act’s increased funding for hazardous fuels reduction, we plan to revisit the FS
hazardous fuels program. At the current time, we plan to begin a new hazardous fuels audit in
the spring. Our objective will be to assess the agency’s progress on prior recommendations
and the effectiveness of any relevant new FS initiatives.      This audit will also include our
monitoring and oversight of hazardous fuels funds allocated to FS by the Recovery Act.


To provide responsive oversight of the $650 million provided by the Recovery Act for FS for
capital improvement and maintenance, we have added a review of this subject area to our
fiscal year 2009 audit plan.     In two previous OIG audits of FS capital improvement and
maintenance operations, we identified areas needing improvement. These included (1) better
methods of compiling maintenance backlog information; (2) inventorying all infrastructure on
National Forest System (NFS) lands, and (3) implementing controls to ensure that operations
and maintenance plans are prepared. This audit will follow up on our previous
recommendations and evaluate FS internal management controls for the Recovery Act funds
used for capital maintenance and improvement activities.


FS Administration of Grants
As part of the $500 million available to FS for Wildland Fire Management, the Recovery Act

6
    Wildland Fire Management, GAO-07-1168, September 2007.
                                                                                               5
 


provided FS $250 million for grants to fund projects located on State and private lands; up to
$50 million of this amount may be used to fund wood-to-energy grants to promote increased
utilization of biomass. A previous OIG audit of FS’ Renewable Energy Program 7 found FS
controls over the woody biomass grant program were inadequate to ensure that the grant
funds were spent for their intended purpose.

We will conduct audits of biomass utilization grants in two phases. For the first phase, we will
determine whether FS has established proper internal controls, selection and eligibility
guidelines, oversight procedures, and reporting requirements in accordance with Recovery Act
and Office of Management and Budget (OMB) guidelines. For the next phase, we will audit
FS’ controls over its administration, funding, and monitoring of approved biomass grants to
non-Federal entities.


         C. Recovery Act Oversight: Reporting OIG’s Activities and Results

The closing comment I would like to offer regarding our preliminary oversight plan at USDA
OIG pertains to our recognition of the importance of timely reporting about stimulus- related
activities. Fulfilling our reporting obligations under the Recovery Act will assist FS officials and
congressional oversight committees in carrying out their responsibilities.       We will alert FS
officials to program integrity and efficiency problems as quickly as possible to expedite
corrective actions. We will incorporate the Recovery Act’s new requirements regarding
whistleblower complaints into our semi-annual reports to Congress. As provided by OMB
guidance, OIG will separately report our use of Recovery Act monies and other funds for
stimulus-related activities in our reports and “Recovery.gov” submissions.


II. Reviewing FS’ Aerial Resources Programs, and FS Financial Statements

Assessing FS’ Air Safety
I would like to provide followup information to the Subcommittee regarding an issue we
discussed in last year’s hearing—our audit of FS’ Air Safety Program. 8 We reported that FS


7
    Forest Service’s Renewable Energy Program. OIG report 08601-52-SF, August 2008.
8
    Forest Service Air Safety Program. OIG report 08-010048-SF, February 2008.
                                                                                                  6
 


has assumed the maintenance responsibilities and airworthiness evaluations for its aircraft, but
faced technical and resource challenges in performing them. FS has made strides toward
improving its air safety program, but the agency still needs to develop and implement an
airworthiness assessment, inspection, and maintenance program geared towards the
particular demands of the firefighting flight environment.


Since our audit was issued, FS has implemented an improved air safety program. FS’ air
safety program incorporates the recommendations from the National Transportation Safety
Board reports and the Blue Ribbon Panel report on FS aviation. 9 Since implementation of its
enhanced program, FS has suffered no losses of fixed-wing airtankers due to in-flight
structural failure. FS is continuing to work on improving its safety program to include rotor
wing aircraft and aircraft loaned to States under the Federal Excess Personal Property
program.


However, under the current circumstances, FS’ air safety program may expect to have
success for only a limited amount of time. The airtankers currently being used by FS are 40 to
60 years old. These airtankers are accumulating flight hours at a rate four to five times greater
than the annual rate airtankers experienced 30 years ago. Under these circumstances, even
the best air safety program cannot reasonably be expected to be able to continue to protect
the public and FS employees from accidents. We will soon issue a new report that will discuss
the agency’s program to address some of these concerns. (Discussed below).


FS Replacement Plan for Firefighting Aerial Resources
We are currently nearing completion of an audit that examined FS’ plan for replacing its
firefighting aerial resources. Our audit evaluated FS’ overall plan for procuring new airplanes
and helicopters for its aerial firefighting program. Over the next decade, FS plans to modernize
its firefighting aircraft, particularly its airtanker fleet. Airtankers are key resources because
they can fly to remote areas and quickly contain small fires before they become larger, costlier,
and more dangerous. In 2002, FS had 44 airtankers, but lost more than half in 2004 after they

9
 NTSB’s “Safety Recommendation” (April 23, 2004). The Blue Ribbon Panel was jointly commissioned
by FS and the Department of Interior’s Bureau of Land Management. The panel’s analysis covered the
aviation safety programs of both agencies.
                                                                                                 7
 


were grounded due to safety concerns. FS estimates that by 2012, the remaining 19 airtankers
will begin to be either too expensive to maintain or no longer airworthy. Unlike other aircraft
that FS can obtain via leases, FS will likely have to purchase airtankers due to the lack of
manufacturers willing to lease them. According to FS, replacing airtankers alone will cost up to
$2.5 billion.


Forest Service Sustains Unqualified Opinion on its Financial Statements
Pursuant to the Chief Financial Officers Act of 1990 and OMB guidance, OIG is responsible for
an annual audit of FS’ financial statements to obtain reasonable assurance that they are free
of material misstatements. In FY 2008, FS sustained its unqualified opinion on its financial
statements.     FS continued to make progress in its financial management and financial
reporting. The agency made sufficient progress in addressing its material weakness in the
area of information technology (IT) that the auditors downgraded it to a significant deficiency.
FS made progress in the areas of vulnerability assessments, change control, security
certification and accreditation, and segregation of duties. These improvements allowed the
material weakness to be downgraded.         However, to sustain this progress, FS needs to
continue improving its information security program.


III. OIG Audits of FS in 2009: In Process Reviews


OIG currently has 14 audits underway of various FS programs and activities. In addition to the
aforementioned Firefighting Aerial Resources audit, I would like to describe several of the most
significant reviews we are working on.      We will provide each audit report directly to the
Subcommittee upon completion.


Evaluating FS Processes to Obtain and Grant Rights of Way and Easements
FS manages thousands of easements, which can provide access to private land through a
National Forest and access to a National Forest, by going through State, local, or private land.
Concerns arose in one State in 2008 regarding an FS proposal to clarify an easement
agreement between the agency and a major private landowner. The FS proposed easement
clarification gave rise to legal, policy, and procedural issues such as access rights of owners,

                                                                                               8
 


road uses and development within NFS lands, public input, and the potential impact on county
infrastructure and fire protection. OIG has recently initiated an audit to determine if FS is both
properly obtaining rights-of-way and easements (ROW&E) necessary to manage Federal lands
and properly granting and modifying ROW&E in accordance with laws, regulations, and the
best interests of FS.


FS Firefighting Succession Plans
FS and other firefighting agencies are facing a severe shortage of qualified firefighters as the
workforce gets older and firefighters face mandatory retirement. With this in mind, we initiated
an audit to determine what actions FS was taking to address this situation. Specifically, the
audit will determine whether FS has adequately planned for the timely replacement of its
critical wildfire suppression personnel as retirements increase and fewer of its personnel
volunteer for fire suppression duties due to concerns over safety, liability, and other factors.


Followup on Prior OIG Firefighter Safety Audits
We are currently following up on our two previous audits that addressed the safety of
firefighting personnel: FS’ Firefighting Safety Program 10 and FS’ Firefighting Contract Crews. 11
In both reports, we found deficiencies in documentation supporting firefighters’ training and
qualifications. Instances of missing documentation included the “Task Books” that firefighters
usually receive after completing prerequisite training courses. The task books provide
verification that firefighters have satisfied rigorous on-the-job training requirements. Also, we
found that FS was not monitoring implementation of recommendations from wildfire accident
reports. The audit will determine whether FS has adequately implemented the corrective
actions to which it agreed in response to OIG’s audits. We have just begun work on this
review.




10
     Forest Service Firefighting Safety Program. OIG report 08601-38-SF, September 2004
11
     Forest Service Firefighting Contract Crews. OIG report 08601-42-SF, March 2006.
                                                                                                   9
 


IV. OIG Investigations


Investigations into potential criminal violations and incidents of serious misconduct are also an
important element of OIG’s oversight of FS activities and operations. During the past year, we
have been engaged in an array of investigative work related to FS, with extensive involvement
in wildland fire and personnel misconduct investigations.           In FY 2008, OIG’s Office of
Investigations (Investigations) initiated 20 investigations related to FS.      Our investigative
results for the fiscal year included obtaining 8 indictments, 7 convictions, and $8.6 million in
monetary results. Of course, other investigations we initiated related to FS operations and
programs in FY 2008 or prior years are still being actively worked by OIG special agents.


Wildland Fire Investigations

An important responsibility for Investigations is our statutory duty to conduct independent
investigations of any FS firefighter deaths that “are caused by wildfire entrapment or
burnover.” 12 To fulfill our investigatory responsibilities, we have developed a Wildland Fire
Investigation Team (WFIT) comprised of eight investigators who undergo extensive training.
Each member of our WFIT has attended the Basic Fire Academy (operated in coordination
with Boise State University in Idaho) and several members have attended the Serious Accident
Investigations Course sponsored by the Bureau of Land Management. Our WFIT members
have visited active forests fires independent of any OIG investigation to obtain additional
experience. Since our last appearance before the Subcommittee, Investigations has been
working to conclude two wildland fire investigations involving FS firefighter fatalities: the long-
standing Thirtymile Fire investigation and the Esperanza Fire investigation.


As the Chairman will recall, the Thirtymile Fire occurred in July 2001 in the North Central area
of Washington State. Four FS firefighters were killed after their fire shelter deployment site
was burned over in the Chewuch River Canyon, 30 miles north of Winthrop, Washington. The
statutory requirement for an independent OIG investigation had not been established at that
time. Our investigation into the events surrounding the loss of life was initiated in July 2003 at


12
     Public Law 107-203, July 24, 2002. 7 U.S.C. 2270(b)-2270(c).
                                                                                                10
 


the request of the United States Attorney for the Eastern District of Washington.                OIG’s
investigation found that the Incident Commander (IC) made false statements about his lack of
proper instructions to the firefighters about their positioning as the fire approached and
whether a fire engine assigned to fight the fire had checked in with him, as required. (The
captain of the engine properly did so.) The IC pled guilty in 2008 to two counts of making and
delivering a false statement in an official writing. In August 2008, the IC was sentenced to
serve 90 days in a work release facility and to refrain from participating in firefighting activities
with any agency.

Our second active wildland fire investigation in 2008 was the Esperanza Fire that began on
October 26, 2006, near the town of Cabazon in Southern California. The fire burned in excess
of 41,000 acres and destroyed a total of 54 residences and outbuildings. Shortly after the fire
began, five FS firefighters were entrapped while deploying to protect a private residence on a
hilltop. Three of the FS firefighters lost their lives at the site when a burnover occurred. Two
other firefighters were critically injured and later died at the hospital as a result of their injuries.
This investigation presented a unique challenge for our WFIT. It was the first instance since
enactment of the public law in which FS personnel were not in charge of the incident command
when the fatalities occurred. The fire occurred on non-Federal land, and FS was assisting in
the suppression effort as part of a cooperative agreement with the California Department of
Forestry and Fire Protection, an entity for which OIG has no oversight jurisdiction.

The cause of this fire was determined to be arson by local and Federal law enforcement
officials and FS. The individual alleged to have deliberately set the fire was charged by the
Riverside County District Attorney’s Office with 5 counts of murder (capital offenses),
11 counts of arson, and 10 counts of using incendiary devices to start fires. The trial was held
in Riverside County Superior Court in California; closing arguments occurred on February 26,
2009. We expect to issue our investigative report to Congress by the end of this month, and
will, of course, provide it directly to the Subcommittee.




                                                                                                     11
 


Other OIG Investigations Involving FS

Within the last year, OIG has completed several investigations involving FS personnel. I will
briefly mention two such investigations that demonstrate the different types of fraud cases that
arise involving FS programs and employees.


In December 2008, a former FS employee in Washington, D.C., was sentenced for embezzling
nearly $300,000 from FS. While employed by FS as a management analyst, the employee
claimed overtime and holiday pay for hours she did not work. The investigation disclosed that
the employee began defrauding the Government in 2005 by approving her own time and
attendance reports without the knowledge of her supervisors. The former employee pled guilty
to conversion of public money and was sentenced to 18 months of imprisonment, 36 months of
supervised release, and ordered to pay $282,000 in restitution.


Another OIG investigation disclosed that a former FS firefighter in Los Angeles, California
illegally used his Government-assigned purchase card for personal use by charging over
$31,000 worth of personal items. The former firefighter was on a medical leave of absence
from his duty station at the time these charges were made. The former employee pled guilty to
theft of Government funds and was sentenced in February 2009 to 60 months of probation, 25
hours of community service, and ordered to pay $5,000 in restitution to USDA.


This concludes my statement. I again want to thank Chairman Dicks and Members of the
Subcommittee for the opportunity to present testimony on behalf of OIG. I would be pleased to
address your questions.




                                                                                             12
